HHS/OIG, Audit - "Audit of Medical Education Payments Claimed For
the Period January 1 to December 31, 1999 - Clarian Health Partners, Inc., Indianapolis,
Indiana," (A-05-02-00026)
Department
of Health and Human Services
"Audit of Medical Education Payments Claimed For the Period January 1
to December 31, 1999 - Clarian Health Partners, Inc., Indianapolis, Indiana,"
(A-05-02-00026)
December 10, 2002
Complete
Text of Report is available in PDF format (482 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of medical education payments
claimed by Clarian Health Partners, Inc. (Clarian) for the period January 1
to December 31, 1999.  The objective of the review was to determine the
accuracy of resident full time equivalent (FTE) counts used by Clarian to calculate
direct graduate medical education (GME) and indirect medical education (IME)
payments.  We determined that Clarian overstated their resident FTE counts
by 87.26 FTEs (51.48 GME and 35.78 IME).   This overstatement occurred
because Clarian did not compute the FTE counts in accordance with federal regulations.
As a result of these errors, Clarian overclaimed reimbursement by a total of
$263,884 ($260,161 GME and $3,723 IME).  We recommended that Clarian: 1)
reduce the FTE counts reported on its FY 1999 Medicare cost report by 51.48
for GME and 35.78 for IME, 2) strengthen controls to ensure that future FTE
counts are calculated in accordance with Federal requirements, and 3) determine
whether the errors identified in our review have occurred in prior Medicare
cost reports and coordinate with its fiscal intermediary, AdminaStar Federal,
to make any necessary financial adjustments.